     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

May 25, 2011

Report Number: A-05-10-00043

Ms. Lucinda E. Jesson
Commissioner
Minnesota Department of Human Services
540 Cedar St.
St. Paul, MN 55101

Dear Ms. Jesson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of State of Minnesota Reporting Medicaid Fraud
Control Unit Recoveries on the CMS-64 for the Period October 1, 2005, Through December 31,
2008. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833 ext. 21 or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-10-00043 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Lucinda E. Jesson


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF STATE OF MINNESOTA
 REPORTING MEDICAID FRAUD
  CONTROL UNIT RECOVERIES
ON THE CMS-64 FOR THE PERIOD
  OCTOBER 1, 2005, THROUGH
     DECEMBER 31, 2008




                       Daniel R. Levinson
                        Inspector General

                           May 2011
                         A-05-10-00043
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Minnesota, the Minnesota Department of Human Services (State agency) provides oversight
for Minnesota’s Medicaid program, known as Medical Assistance, for compliance with Federal
requirements and the State’s counties administer the program. The State’s Medicaid Fraud
Control Unit (MFCU) investigates potential fraud and abuse cases that are referred to MFCU by
other parties such as the Surveillance and Integrity Review (SIRs) unit, local governments, and a
hotline. Investigations can be either civil or criminal in nature and are settled either by a
settlement agreement signed by all parties (civil) or sentencing by a judge (criminal).

Section 1903(d)(2) of the Act, requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations resulting from fraud or abuse is the date that a provider was first notified
in writing of the State’s final overpayment determination (42 CFR § 433.316(d)). Federal
regulations (42 CFR § 433.304) define an overpayment as “... the amount paid by a Medicaid
agency to a provider in excess of the amount that is allowable for the services furnished under
section 1902 of the Act and which is required to be refunded under section 1903 of the Act.”
Because the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,
Form CMS-64 (CMS-64), is due on a quarterly basis, the CMS State Medicaid Manual requires
the Federal share of the overpayments be reported no later than the quarter in which the 60-day
period ends.

OBJECTIVE

Our objective was to determine whether Medicaid overpayments identified by the State’s MFCU
were reported on the CMS-64 in accordance with Federal requirements.

SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the period October 1, 2005, through March 31, 2009, the State agency
did not report Medicaid overpayments totaling $31,133 ($15,350 Federal share) in accordance
with Federal requirements.



                                                  i
Of the 11 overpayments reviewed, 8 were partially reported and 3 were reported correctly on the
CMS-64. The State agency did not report 2 of the 11 Medicaid overpayments to providers
within the 60-day time requirement.

The State agency did not properly report these overpayments because it had not developed and
implemented internal controls to ensure that it correctly reported overpayments on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $31,133 on the CMS-64 and refund
       $15,350 to the Federal Government,

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency disagreed with our assertions that
$31,133 ($15,350 Federal share) in Medicaid overpayments was partially reported and an
incorrect FMAP applied. However, the State agreed to refund the $15,350 because the amount
does not warrant a challenge or appeal. The State said it will review internal controls
surrounding Medicare overpayments reported on the CMS-64. The State agency’s comments are
included in their entirety as the appendix.

We maintain that our assertions and recommendations are valid.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................4

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................5

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

In Minnesota, the Minnesota Department of Human Services (State agency) provides oversight
for Minnesota’s Medicaid program, known as Medical Assistance, for compliance with Federal
requirements. The State agency’s county human services offices administer the program. The
State’s Medicaid Fraud Control Unit investigates potential fraud and abuse cases that are referred
by other parties such as the Surveillance and Integrity Review (SIRs) unit, local governments,
and a hotline. Investigations can be either civil or criminal in nature and are settled by either a
settlement agreement signed by all parties (civil) or sentencing by a judge (criminal).

Federal Requirements for Medicaid Overpayments

The Federal government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary to recover the
amount of a Medicaid overpayment. Federal regulations (42 CFR § 433.304) define an
overpayment as “... the amount paid by a Medicaid agency to a provider in excess of the amount
that is allowable for services furnished under section 1902 of the Act and which is required to be
refunded under section 1903 of the Act.” A State has 60 days from the discovery of a Medicaid
overpayment to a provider to recover or attempt to recover the overpayment before the Federal
share of the overpayment must be refunded to CMS. Section 1903(d)(2) of the Act, as amended
by the Consolidated Omnibus Budget Reconciliation Act of 1985, and Federal regulations at 42
CFR part 433, subpart F, require a State to refund the Federal share of overpayments at the end
of the 60-day period following discovery whether or not the State has recovered the overpayment
from the provider. 1 Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or
abuse is discovered on the date of the final written notice of the State’s overpayment
determination that a Medicaid agency official or other State official sends to the provider.


1
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.

                                                         1
In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments identified by the State’s MFCU
were reported on the CMS-64 in accordance with Federal requirements.

Scope

Our review covered Medicaid overpayments to providers that were identified by MFCU through
civil or criminal proceedings. MFCU notified the providers between October 1, 2005, and
September 30, 2008 and the overpayments should have been reported on the CMS-64 during the
period from October 1, 2005, through December 31, 2008. The 11 overpayments reviewed
totaled $996,342 and represented overpayments of $10,000 or more for Medicaid services that
were subject to the 60-day rule.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency offices in St. Paul, Minnesota.

Methodology

To accomplish our audit objective, we:

   •    reviewed Federal laws, regulations, and other requirements governing Medicaid
        overpayments;

   •    interviewed State agency officials regarding policies and procedures relating to Medicaid
        overpayments subject to the 60-day rule and reporting overpayments on the CMS-64;

   •    identified 60 overpayments for Medicaid services identified by MFCU subject to the 60-
        day rule, which totaled $14,921,845;

   •    selected a judgmental sample of 11 overpayments that were identified by MFCU between
        October 1, 2005 and September 30, 2008 in which the original overpayment identified
        was greater than or equal to $10,000;

   •    established the dates of discovery using the date that the Medicaid provider was either
        sentenced (in criminal cases) or signed a settlement agreement (in civil cases);

                                                 2
    •   determined the quarter in which the 60-day period following discovery of the
        overpayment ended;

    •   reviewed the CMS-64 to determine whether the Medicaid overpayments were reported
        for the quarter in which the 60-day period following discovery ended;

    •   reviewed the CMS-64 to determine whether Medicaid overpayments were reported
        during any subsequent quarter through June 30, 2009;

    •   determined whether cash or credit overpayment collections/recoveries were adequately
        supported and reported on the CMS-64; 2

    •   determined if providers selected as part of our sample were bankrupt or out-of-business;

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the State fiscal year ending June 30,
        2010. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments on the CMS-64 in accordance with
Federal requirements. For the period October 1, 2005, through March 31, 2009, the State agency
did not report Medicaid overpayments totaling $31,133 ($15,350 Federal share) in accordance
with Federal requirements. Of the 11 overpayments reviewed, 8 were partially reported and 3
were reported correctly on the CMS-64. The State agency did not report 2 of the 11 Medicaid
overpayments to providers within the 60-day time requirement.




2
 The State agency reporting process tracks overpayment recoveries/collections either through the Minnesota
Accounting & Procurement System (MAPS) reports for collections by check or the Medicaid Management
Information System (MMIS) for credit adjustments. Check collections are reported on Line 9c of the CMS-64 and
credit adjustments on Line 29 – Other Care of the CMS-64 Base and included as part of the total expenditures
claimed on Line 6 of the CMS-64 Summary.
3
 We calculated the interest expense using the applicable interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.

                                                        3
Because the overpayments were not properly reported on the CMS-64, the Federal Government
may have incurred increased interest expense of $1,425.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “ ... must refund the Federal share of
overpayments at the end of the 60-day period following discovery ... whether or not the State has
recovered the overpayment from the provider.” The regulation provides an exception only when
the State is unable to recover the overpayment amount because the provider is bankrupt or out of
business (42 CFR § 433.318).

Pursuant to the State Medicaid Manual Section 2500.6(B), the State agency “Include refunds
from overpaid Medicaid providers or recipients ... Upon receipt of such funds, determine the date
or period of the expenditure for which the refund is made to establish the FMAP (Federal
Medical Assistance Percentages) at which the original expenditure was matched by the Federal
government. Make refunds of the Federal share at the FMAP for which you were reimbursed.”

For the period October 1, 2005, through March 31, 2009, the State agency did not report
Medicaid overpayments totaling $31,133 ($15,350 Federal share) in accordance with Federal
requirements. This $31,133 ($15,350 Federal share) represents unsupported collections that the
State did not provide support to determine if the collections were either cash deposits or credit
adjustments and reported correctly. In addition, the State applied the current FMAP rate instead
of the rate in effect at the time the overpayment was made.

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “ ... must refund the Federal share of
overpayments at the end of the 60-day period following discovery ... whether or not the State has
recovered the overpayment from the provider.” In addition, Federal regulation (42 CFR §
433.316(d)) defines the date of discovery for overpayments resulting from fraud or abuse as the
date of the final written notice of the State’s overpayment determination. These regulations do
not allow for extending the date.

The State agency did not report all Medicaid provider overpayments in accordance with the 60-
day requirement. The State agency reported the 11 sampled overpayments on the CMS-64;
however, 8 overpayments were considered only partially reported due to unsupported collections
and applying incorrect FMAP rates. In addition, two overpayments, totaling $269,816 ($141,584
Federal share), were not reported on the CMS-64 at the end of the 60-day period. The untimely
reporting resulted from clerical errors that occurred within the State’s overpayment reporting
process. The State agency did not properly report these overpayments because it had not
developed and implemented internal controls to ensure that it correctly reported overpayments on
the CMS-64.




                                                4
POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments completely and was not timely in
reporting others, the Federal Government did not have the use of these funds. As a result, the
Federal Government potentially incurred an increased interest expense of $1,425. However, we
did not include this Federal interest expense in the amount of overpayments we recommend that
the State agency refund.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it correctly
reported on the CMS-64, the Medicaid overpayments identified from the State’s MFCU.


RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $31,133 on the CMS-64 and refund
       $15,350 to the Federal Government,

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency disagreed with our assertions that
$31,133 ($15,350 Federal share) in Medicaid overpayments was partially reported and an
incorrect FMAP applied. However, the State agreed to refund the $15,350 because the amount
does not warrant a challenge or appeal. The State said it will review internal controls
surrounding Medicare overpayments reported on the CMS-64. The State agency’s comments are
included in their entirety as the appendix.

We maintain that our assertions and recommendations are valid.




                                                5
APPENDIX
                                                                                                             Page 1 of 2
                              APPENDIX: STATE AGENCY COMMENTS


Minnesota Department of Human Services - - - - - - - - - - --
                                                           -- - ­
                                                                -

May 11, 2011

James Cox
Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

RE: 	   Review of State of MN Reporting MFCU Funds Recoveries on the CMS-64 for the Period October
        1, 2005, Through December 31, 2008

        Auditt Report Number A-05-10-00043
        Audi

Dea r M r. Cox,

Thank you for giving us an opportunity to respond to the OIG audit report titled "Review of State of MN
Reporting MFCU Funds Recoveries on the CMS-64 for the Period October 1, 2005, Through December 31, 2008
(A--05-10-00043)./I It is our understanding that our response will be published in the Office ofthe Inspector
(A
General's final audit report. The report contained the following recommendations:

Recommendation #1
Include unreported Medicaid overpayments of $31,133 on the CMS-64 and refund $15,350 to the Federal
Government.

Department Comments:

The Department agrees two overpayments from the audit sample were not reported within the 60-day time
requirement. The Department agrees some overpayments may have been reported at a different Federal
Medical Assistance Percentage (FMAP) than the applicable FMAP at the time the expenditure occurred. The
Departments p ractice has been to report the overpayment amounts at the applicable FMAP for the quarter in
which they are identified. Provider overpayments often span several months or years, and may not be capable
of being directly tied to individual claims (random sampling or extrapolation to a universe of claims, for
example). This is done regardless of whether our FMAP is higher or lower than the applicable FMAP at the time
the expenditure occurred. This is also consistent with the cash-basis reporting used on the expenditure side of
the CMS-64. Lastly, the investmen
                           investmentt in time and effort required to attempt to track the original payment date of
each claim to the applicable FMAP is not cost-effective given the small differences that would result from such
efforts.

We also note that the draft report cites section 2500.6, subsection B of the State Medicaid Manual, but ellipses
an important sentence. The entire subsection provides:
      "B. Return of the Federal Share of Recoveries and Collections-Form HCFA-64 also
      shows the Federal share of recoveries from any source of expenditures claimed in
      prior quarters.




                                    An equal opportunity and veteran-friendly employer
                                                                                                            Page 2 of 2
James Cox, Regional Inspector General for Audit Services 

Minnesota Department of Human Services Response to 

Audit Report Number A-OS-10-00043 

Page 2 





         Include refunds from overpaid Medicaid providers or recipients, cancelled, 

         uncashed or voided checks and vouchers (see 42 CFR 433.40), or settlements from 

         liable third parties such as private insurance and casualty related court settlements
                                                                                   settlements.. 


         Upon receipt of such funds, determine the date or period of the expenditure from
         which the refund is made to establish the FMAP at which the original expenditure
         was matched by the Federal government. Make refunds of the Federal sha re at the
         FMAP for which you were reimbursed. When recoveries cannot be related to a
        specific period, compute the Federal share at the FMAP rate in effect at the time the
        refund was received (Emphasis added). Make adjustments to prior periods in
         subsequent HCFA-64 forms to reflect the correct FMAP rate."

This paragraph requires that recoveries that can be related to a specific payment should be adjusted on
subsequent CMS-64s, and allows for the circumstance in which a recovery cannot be related back to a specific
payment. In that case, the correct FMAP rate is the rate in effect at the time the refund is received.

Lastly, the Department does not agree with the assertion it partially reported eight overpayments.
Documentation was provided supporting differences between discovered overpayment amounts and amounts
reported on the CMS-64. The Department provided documentation indicating the differences were caused by
collections made within the same quarter the overpayment was identified.

While the Department disagrees with the DIG on the correct FMAP used to calculate unreported Medicaid
overpayments, we believe the amount due does not warrant a challenge or appeal. Accordingly, the 

Department agrees to pay the full amount sought, $15,350. 


Recommendation #2
Develop and implement internal controls to correctly repor
                                                     reportt and refund the Federal share of identified Medicaid
overpayments on the CMS-64.

Department Comments:

The Department agrees to review the internal controls surrounding Medicaid overpayments reported on the
CMS-64. The Department will conduct a review of our operations procedures and update and/or modify them
so that the case file documentation is adequate to support changes in recovered amounts.

The Department of Human Services will continue to evaluate the progress being made to resolve all audit
findings until full resolution has occurred. If you have any further questions, please contact Gary L. Johnson,
Internal Audit Director, at (651) 431-3623.



~'
lucindaE.. Jesson
lucindaE   Jesson­­
Commissioner


                                            A n equal opportunity and veteran
                                                                      veteran--friendly emplo
                                                                                        employe
                                                                                             yerr
